No:
IN THE
SUPREME COURT OF THE UNITED STATES

KENNETH LEE MANHARD,
Petitioner
v.
UNITED STATES OF AMERICA,
Respondent

ON PETITION FOR A WRIT OF CERTIORARI TO
HIGHEST COURT OF FLORIDA

CERTIFICATE OF SERVICE
/ HEREBY CERTIFY, pursuant to Supreme Court Rule 29.5(b), that on this

4

day of

June, 2020true copies of the Petition for Writ of Certiorari were mailed in an envelope to the Clerk,
United States Supreme Court, One First Street, N.E., Washington, D.C. 20543; to the Solicitor General
of the United States, Room 5616, Department of Justice, 950 Pennsylvania Avenue, N.W., Washington,
D.C. 20530-0001.
All parties required to be served have been served.
EXECUTED this

H

day of June 2020.

- RwhSefh Lee Manhard
New River Correctional Institution
P. O. Box 900
Raiford, FI 32083

15

